         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Management of Explosives at Selected
Department Sites




INS-O-12-02                          July 2012
                                  Department of Energy
                                    Washington, DC 20585
                                           July 2, 2012

MEMORANDUM FOR THE CHIEF HEALTH, SAFETY AND SECURITY OFFICER
               MANAGER, IDAHO OPERATIONS OFFICE
               MANAGER, SAVANNAH RIVER SITE
               MANAGER, SANDIA SITE OFFICE
               MANAGER, LOS ALAMOS SITE OFFICE


FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                           for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Management of
                         Explosives at Selected Department Sites"

INTRODUCTION AND OBJECTIVE

In support of its research and development mission and security of its facilities, the Department
of Energy maintains a significant inventory of explosives. In terms of mission, the Department
conducts research into explosives detection, effects and mitigation. These processes are
inherently hazardous. To help reduce the risk of harm, the Department developed the DOE
Explosives Safety Manual to provide direction for protecting its personnel from injury during
explosives operations.

While the Department had developed and implemented a number of explosives related safety
measures, those measures have not always been completely effective. For example, we reported
in our Audit Report on The Department's Management of Non-Nuclear High Explosives
(DOE/IG-0730, June 2006), that improvements could be made in maintaining control,
accountability and safety of explosives. The Department concurred with our recommendations
for improvement and indicated that corrective actions to resolve the identified safety issues had
been implemented.

Given the dangerous nature of explosives, the potential for catastrophic incidents and our prior
concerns, we initiated this inspection to determine whether explosives were being safely handled
and stored at selected Department sites.

RESULTS OF INSPECTION

Our inspection revealed problems with handling and storing explosives at each of the four
contractor-operated sites we visited, potentially increasing the risk of harm to personnel and
infrastructure. Specifically, we found that:

   •   Contrary to established practice designed to minimize the impact of inadvertent
       detonation, Savannah River Site and Idaho National Laboratory performed explosive
       shipment inspections during peak traffic hours at populated main gates rather than at
       remote area and/or during non-peak traffic hours;
                                                2


    •   Savannah River and Idaho inspection procedures could potentially allow inspection
        handlers to return unsafe explosives shipments to public highways, possibly
        exposing the general public to hazardous conditions; and,

    •   Following one experiment, Sandia National Laboratories returned the remains of
        explosives that had undergone various tests to storage without completing a required,
        documented determination of whether storage with other active explosives
        represented an unacceptable safety risk.

We also observed that excess combustible and non-combustible materials were being stored
in explosives bunkers; incorrect bunker placards and fire symbols were posted on bunkers
and buildings; and, excess explosives waste was not being disposed of timely. These actions
could have resulted in injury to employees and members of the public from unanticipated
explosives events. Notably, management officials at all of the sites took immediate action to
resolve these particular issues as soon as we brought them to their attention. The only issue
we observed at Los Alamos, the storage of boxes and trash in an explosives operating area,
was corrected immediately after we identified it.

We found that Department management had not focused the attention needed to ensure that the
responsible facilities contractors properly implemented Department policies for handling and
storing explosives, as required. Also, contractor officials charged with managing and
safeguarding explosives had not ensured compliance with various aspects of the DOE Explosives
Safety Manual. Although various reasons were offered by contractor officials in support of their
approaches, the actions taken did not comport with protocols established by the Department for
ensuring explosives safety.

Failure to properly implement safety protocols for explosives handling and storage procedures
unnecessarily increases the risk of harm to personnel, infrastructure and equipment. In response
to our findings, Department management took corrective actions during the inspection to address
most of the issues identified in this report. For the remaining policy and operational issues, we
made recommendations regarding changes to explosives safety policy and procedures. The
actions initiated by the Department, coupled with those outlined in our recommendations should,
if fully implemented, help improve the safety at the Department’s explosives storage and
operating facilities.

MANAGEMENT REACTION

The Chief Health, Safety and Security Officer generally concurred with the intent of the findings
of the report, stating that the explosive shipment inspection issue had already been properly
addressed; however, the Office of Health, Safety and Security maintained that it would discuss
our concerns, make appropriate additions and update the Technical Standard during the next
annual Explosives Safety Committee meeting. In separate comments, the Manager, Idaho
Operations Office generally agreed with the intent of our recommendation and indicated that
procedures would be reviewed to ensure that explosives will not be delivered during peak-traffic
hours.
                                               3


Additional, specific comments regarding our observations and recommendations, and our
responses to those comments are discussed at relevant points in the body of our report.

The comments provided by HSS, to which comments from Idaho were appended, are included in
their entirety in Appendix 3. The other sites we reviewed elected not to provide official
comments on our report.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Under Secretary for Nuclear Security
      Assistant Secretary for Nuclear Energy
      Chief of Staff
MANAGEMENT OF EXPLOSIVES AT SELECTED DEPARTMENT SITES



TABLE OF
CONTENTS


Handling and Storing Explosives

Details of Finding                                  1

Recommendations and Comments                        7


Appendices

1. Objective, Scope and Methodology                 10

2. Prior Reports                                    11

3. Management Comments                              12
MANAGEMENT OF EXPLOSIVES AT SELECTED DEPARTMENT SITES

HANDLING AND    Improvements were needed for the handling and storage of
STORING         explosives at each of the four Department of Energy (Department)
EXPLOSIVES      sites reviewed to assure the safety of its personnel and
                infrastructure. The four sites we inspected were Savannah River
                Site (Savannah River), Idaho National Laboratory (Idaho), Los
                Alamos National Laboratory (Los Alamos) and Sandia National
                Laboratories, New Mexico (Sandia). We found issues with
                designated inspection stations, acceptance of explosives shipments
                and tested explosives. As the Department notes in its governing
                policy, maintaining explosives safety in all operations within the
                Department is an ongoing process that, to be truly effective, must
                be given high priority in all program oversight, direction,
                management and line activities. Also, personnel, infrastructure
                and equipment must be appropriately protected to facilitate the
                execution of the Department's crucial explosives research and
                mitigation mission.

                                  Designated Inspection Stations

                Contrary to established practice designed to minimize the impact
                of inadvertent detonation, Savannah River and Idaho performed
                inspections of explosives at the sites' main gates, a practice that
                unnecessarily exposed employees to the risk of injury from
                unanticipated explosives events. DOE Manual 440.1-1A, DOE
                Explosives Safety Manual (Safety Manual), requires explosives
                inspection handlers to inspect incoming vehicles at a station
                remote from hazardous and populated areas. We did not
                physically observe explosives loads being inspected at the main
                gate; however, our review of internal procedures and interviews
                with explosives handling personnel at both Savannah River and
                Idaho revealed that inspections were being conducted at the main
                gates. In response to our concern, a senior Savannah River official
                took corrective action by identifying a remote and unpopulated
                area to conduct inspections. However, Idaho has continued its
                practice of inspecting explosives shipments at the main gate.
                Idaho officials told us that explosives shipments are normally
                delivered through the main gate during non-peak traffic hours,
                9:00 a.m. to 3:00 p.m. However, Idaho's 2011 explosives shipment
                log indicated that two of the six explosives shipments were
                delivered at approximately 8:30 a.m.

                During our review and after changes were made at Savannah
                River, the Department's Office of Health, Safety and Security's
                (HSS) Explosives Safety Committee (Committee), with
                responsibility for Safety Manual updates, changed the section of
                the Safety Manual that describes inspection station locations.


Page 1                                                         Details of Finding
         Specifically, the Committee proposed changes that would result in
         the removal of language concerning inspecting vehicles at a station
         remote from hazardous and populated areas, and proposed the
         following language: If practicable, it is recommended that the
         Department receives explosives shipments at a cargo entrance
         gate, less travelled gate or through the primary gate during non-
         peak hours and moderate vehicular and commuter traffic. The
         Committee Chairman informed us that this change was proposed
         because the inspections are visual and considered as relatively low-
         risk activity. The Committee members voted not to accept the
         proposed language during its May 2012 meeting; however, added
         "The Inspections, requiring opening or moving shipping containers
         containing explosives…shall be done at a location sited for
         explosives operations." We believe that this modification is a first
         step in complying with the Department's explosives policy to
         minimize the impact of unplanned detonation; however, additional
         policy clarification is necessary to reduce the risk associated with
         shipment inspections.

                         Acceptance of Explosives Shipments

         Our review revealed that inspection procedures did not include a
         safe location to correct problems with potentially unsafe explosives
         shipments. Specifically, Savannah River and Idaho internal
         procedures could allow explosives inspection handlers to return
         possibly unsafe explosives shipments to public highways, thereby
         exposing the general public to additional unsafe conditions.
         Officials at both sites stated that it was the shipper's responsibility,
         not the Department's, to take corrective actions for problems that
         occurred prior to a shipment arriving at the sites. Further, these
         officials indicated that drivers may object to their trucks being held
         at Department sites for any necessary repairs. The Safety Manual
         provides guidance regarding actions that should be taken in the
         event that a vehicle does not pass inspection. For example, if an
         inspection identifies "unsatisfactory conditions" with a truck, the
         truck should be disconnected from the trailer at the inspection
         station and moved to a position where it will not endanger any
         other explosives. Also, if unsatisfactory conditions are identified
         with a trailer or its load, the trailer should be moved, using a route
         as far as possible from high concentrations of personnel, to an
         isolated location where the conditions are to be corrected.

         Although we did not witness instances of unsatisfactory conditions
         with incoming explosives shipments, senior Savannah River and
         Idaho officials informed us that corrective actions were taken to
         address the issues identified with the procedures for a failed truck


Page 2                                                     Details of Finding
         or trailer inspection. Specifically, during our inspection, Savannah
         River officials changed their explosives safety procedures,
         Munitions Life Cycle Management Procedure (1-1841), to relocate
         trucks with an unsafe condition, including the vehicle or load, to a
         safe area. Further, Idaho officials changed the explosives
         procedures requiring incoming unsafe trucks to be moved to areas
         safe from built-up areas and from areas with high personnel
         concentrations. These changes to explosives safety procedures
         now identify safe locations to correct any unsatisfactory conditions
         with a truck or trailer, consistent with the requirements of the
         Safety Manual, thereby diminishing the exposure to the general
         public.

                                 Tested Explosives

         We identified one experiment that involved several tests in which a
         Sandia official did not ensure that potential safety problems with
         explosives damaged during testing were properly resolved.
         Notably, we found that the remains of the explosives that had
         undergone various tests were returned to storage without
         completing a required, documented determination of whether
         storing the tested explosives with other active explosives
         represented an unacceptable safety risk. The Safety Manual
         requires the Department to isolate explosives that have undergone
         severe testing and may present a special risk to other explosives
         until a documented determination is made. The documented
         determination provides a final assessment on the stability of the
         explosives and the appropriateness of a return to storage.

         Specifically, our inspection identified three metal boxes that
         contained the collected explosives remnants from an experiment
         that had been conducted eight months prior to the inspection. The
         experiment consisted of striking an intact mortar at increasing
         speeds with a projectile to determine the impact characteristics.
         Five mortars were tested and the explosives of two mortars
         completely dissipated. The other three mortars tested were
         scattered within the impact area, then collected by the Principal
         Investigator (PI) and placed in the metal boxes. Also, the PI told
         us that detonations did not occur in any of the tests. Without a
         documented determination to assess the stability of the explosives,
         exposure to other explosives in storage could lead to a potentially
         hazardous condition.

         During our inspection, Sandia officials took corrective action by
         initiating an operations facility shutdown and completing a



Page 3                                                   Details of Finding
                                   100 percent review of all explosives operations. Further, Sandia's
                                   documented determination revealed that a "special risk" did not
                                   exist and that the explosives did not need to be isolated in storage.
                                   Also, two senior managers and the Center Director conducted a
                                   walkthrough of the operations facility and bunker to ensure
                                   explosives were stored in a manner that comported with the Safety
                                   Manual.

OTHER RELATED                      Improvements are also needed in the management of explosives
EXPLOSIVES                         storage housekeeping and signage, as well as excess explosives
MATTERS                            waste disposal. We determined that officials at the four sites
                                   allowed excess combustible and non-combustible materials to be
                                   stored with explosives. Also, Sandia, Idaho and Savannah River
                                   had not correctly posted placards and fire symbols pertaining to
                                   limits for net explosives weight and the types of explosives that are
                                   critical to determining methods used to fight fires. 1, 2 Finally, with
                                   the unexpected closure of the disposal range, Sandia had not
                                   developed a new plan or avenue for determining the location for
                                   disposal of the excess explosives waste. However, management at
                                   the four sites took corrective actions during the inspection to
                                   address the identified issues.

                                            Storage of Combustible and Non-Combustible Materials

                                   We discovered that Los Alamos, Savannah River, Sandia and
                                   Idaho had stored excess combustible and non-combustible
                                   materials with explosives in storage bunkers and in an explosives
                                   operating facility. The Safety Manual prohibits the Department
                                   from storing items such as empty containers, tools, conveyors, lift
                                   trucks and skids in a bunker containing explosives. Also,
                                   combustible materials such as excess packing material and boxes
                                   should not be stored in a bunker containing explosives. The
                                   following are examples of combustible and non-combustible
                                   materials we found at each of the sites inspected:

                                        •    Los Alamos had an explosives operating area containing
                                             boxes and one large bag of trash;




1
 Net explosives weight (NEW) is defined as the total weight of all explosives, propellant, and pyrotechnic material
contained within a single item. Maximum NEW is the limit of the combined NEW of all explosives items that can
be safely stored within a facility.
2
 Placards or fire symbols posted on bunkers should identify potential hazards located within explosives operating
and storage facilities, and identify personnel limits and maximum NEW.

Page 4                                                                                       Details of Finding
            •   Savannah River had two bunkers where two hand trucks
                were stored;

            •   Sandia had two bunkers with an empty wooden pallet
                stored in each; and,

            •   Idaho had two bunkers with excess and unused materials
                (one was used to store numerous packages of firing range
                targets, the other used to store a set of scales).

         Storing excess and unused combustible materials increases the risk
         of a hazard in the event of a bunker fire that could exacerbate an
         already critical situation. During our inspection, management at
         the inspected sites took immediate corrective action by removing
         the hand trucks as well as combustible materials including boxes,
         trash, targets, pallets and packing materials.

                               Bunker Hazard Signage

         Our inspection revealed that, in general, the four sites adequately
         maintained its bunkers; however, placards and fire symbols did not
         always represent the hazards stored within the explosives bunkers
         at three sites—Savannah River, Sandia and Idaho. The Safety
         Manual requires the Department to display placards and fire
         symbols consistently on buildings and work areas throughout an
         entire facility to warn of potential hazards from explosives and to
         provide information for emergency situations. Nevertheless, we
         identified examples of placards and fire symbols incorrectly
         displayed:

            •   Savannah River had one bunker with fire symbols
                displayed that identified a hazard that indicated tear gas
                was present, but the tear gas had been previously removed;

            •   Sandia had two bunkers with placards that identified mass
                detonation explosives, such as bulk explosives, but the
                bunker contained fragmentation producing explosives such
                as projectiles; and,

            •   Idaho had two bunkers that did not legibly post the limits
                for the net explosives weight—the signage had deteriorated
                because of exposure to the weather.

         Incorrect fire symbols and placards or illegible net explosives
         weight limits posted on a facility where explosives are stored or
         handled can lead to potential safety issues, including decisions


Page 5                                                   Details of Finding
                   regarding whether or not to fight a fire in a bunker. During our
                   inspection, management at three sites immediately took corrective
                   action by changing placards, removing fire symbols and adding
                   explosives weight limits.

                                   Excess Explosives Waste Disposal

                   We found that Sandia had not developed a new plan or avenue for
                   determining the location for disposal of the excess explosives
                   waste with the unexpected closure of the disposal range. We
                   determined that the excess explosives waste at Sandia had
                   increased to 1,320 pounds and there was no plan or avenue to
                   dispose of the waste. Specifically, Sandia's excess explosives
                   waste had been disposed of at a Kirtland Air Force Base disposal
                   range. However, due to environmental issues, the disposal range
                   closed in August 2010 for routine disposal operations, but
                   remained open in the event that an emergency disposal was
                   required. Our subsequent discussions with Sandia officials
                   concerning explosives waste disposal revealed that they currently
                   have a goal to relocate all excess explosives waste to an alternate
                   disposal facility by August 2012. Senior Sandia officials informed
                   us that the shipments were sent to the new disposal facility in
                   August, September, November and December 2011, and February
                   2012, and are scheduled for disposal routinely thereafter.

CONTRIBUTING       These issues occurred, in part, because Department management
FACTORS AND        had not focused the attention needed to ensure that responsible
POTENTIAL IMPACT   contractors properly implemented Department policies for
                   handling and storing explosives, as required. Also, contractor
                   officials charged with managing and safeguarding explosives had
                   not ensured compliance with various aspects of the Safety Manual.
                   Although various reasons were offered by contractor officials in
                   support of their approaches, the actions taken did not comport with
                   the protective and preventative best explosives safety protocols
                   established by the Department.

                   A single incident has the potential for catastrophic consequences
                   due to the dangerous nature of explosives. Failure to properly
                   implement safety protocols for explosives handling and storage
                   procedures unnecessarily increases the risk of harm to personnel,
                   infrastructure and equipment. In response to our findings,
                   Department management at the four sites we visited took
                   corrective actions during the inspection to address all but one of




Page 6                                                             Details of Finding
                  the issues identified in this report. For the remaining policy and
                  operational issues, we made two recommendations regarding
                  changes to explosives safety policy and procedures. At each of the
                  four sites reviewed, Department management should continue with
                  its corrective actions and its efforts to sustain best explosives
                  practices initiated during our inspection. Such explosives
                  management practices, if fully implemented, should help improve
                  the safety at these or other Department explosives storage and
                  operating facilities.

RECOMMENDATIONS   To address the policy and operational issues we identified, we
                  recommend that the Chief Health, Safety and Security Officer:

                      1. Ensure that the Department's explosives safety policy
                         incorporates language pertaining to inspections of incoming
                         vehicles carrying explosives to limit exposure to a
                         minimum number of personnel, for a minimum time and to
                         a minimum amount of hazardous material.

                  Further, we recommend that the Manager, Idaho Operations
                  Office:

                      2. Direct Idaho to revise explosives safety procedures where
                         necessary to ensure consistency with Department
                         requirements.

MANAGEMENT AND    The Chief Health, Safety and Security Officer concurred with
INSPECTOR         the comments and the intent of the general findings of the report.
COMMENTS          Regarding recommendation 1, HSS indicated that the Committee
                  felt that the issue regarding vehicle inspection had already been
                  properly addressed; however, HSS maintained that it would
                  discuss our concerns and make appropriate additions when the
                  Technical Standard is updated during the next annual Committee
                  meeting.

                  The Manager, Idaho Operations Office agreed with the intent of
                  recommendation 2 that contractor explosives safety procedures
                  should be consistent with Department requirements, and that Idaho
                  should modify its explosives safety procedures as necessary.
                  However, Idaho disagreed with several statements included in our
                  report and indicated that its explosive vehicle inspection station
                  was located in a remote and less populated area.

                  Idaho maintained the number of personnel exposed to explosive
                  laden vehicles accessing the site through its main gate was limited.



Page 7                                         Recommendations and Comments
         However, we noted that hundreds of Federal and contractor
         personnel must pass through the main gate daily, which is located
         adjacent to the inspection station. Idaho officials contend that
         personnel in vehicles are transients; however, in our discussions
         with the Committee Chairman and two other voting members of
         the Committee, we were told that employees and contractors in
         vehicles passing next to a truck being inspected would not meet the
         definition of a transient. Contrary to Idaho's statements, we were
         also told by Idaho personnel that the truck inspections were
         performed at Idaho's main gate. We observed that the gate area
         becomes heavily populated at least twice a day when hundreds of
         site employees enter and exit the facility. Therefore, we believe
         that Idaho needs to implement explosives safety requirements to
         minimize safety risks for the Department.

         Further, Idaho officials stated that inspections should not be
         governed by quantity-distance requirements, although our report
         did not address the quantity-distance requirements for inspection
         stations. Finally, Idaho stated that risks associated with the
         inspection activity are similar to those associated with
         transportation of explosive materials in-commerce. We do not
         disagree with Idaho's statement; however, we believe that
         explosives may shift during transportation, potentially creating a
         hazardous condition. As such, it would be prudent to inspect an
         explosives load at a remote location in lieu of the main gate. We
         noted that of the four sites we reviewed, Idaho was the only facility
         that maintained an explosive inspection station at the site's main
         gate.

         Idaho officials also disagreed with a statement in our report that
         explosives inspection handlers could potentially return unsafe
         explosives shipments to public highways. These officials stated
         that they follow the Safety Manual, which provides guidance
         regarding safe holding areas for explosive shipments that fail
         inspection. The Safety Manual specifically requires that in the
         event of an unsatisfactory condition of the truck, the trailer or the
         load, the truck, the trailer or both should be moved to a safe area to
         make repairs. Our review of Idaho's written explosive procedures
         did not identify a safe holding area. In addition, an Idaho
         explosives official stated that, contrary to the Safety Manual, a
         trailer carrying explosives that failed inspection would not be
         allowed to enter the site. Idaho officials further disagreed with the
         issue of the storage of excess combustible material with
         explosives. Idaho stated that it was not aware of bunkers being
         used to store firing range targets; however, during our discussions



Page 8                                Recommendations and Comments
         with Idaho management, we identified the specific bunker where
         the firing range targets were found. Also, as previously mentioned
         in our report, Idaho took prompt corrective action by removing the
         targets during our fieldwork.

         Finally, Idaho Operations Office disagreed with the accuracy of the
         conclusion that it had not focused attention on ensuring contractors
         properly implemented Department policies for handling and
         storing explosives. Idaho Operations Office officials stated that it
         uses the results of Department line and independent oversight and
         contractor assurance systems to make informed decisions about
         corrective actions and the acceptability of risks, and to improve the
         effectiveness and efficiency of the programs and site operations.
         However, our conclusions and findings are based on information
         provided to us and evaluated during the inspection. We believe
         that failure to properly implement safety protocols for explosives
         handling and storage procedures unnecessarily increases the risk of
         harm to personnel, infrastructure and equipment. Because of the
         dangerous nature of explosives, a single incident has the potential
         for catastrophic consequences.

         Management comments and planned corrective actions are
         generally responsive to our recommendations and we appreciate
         management's recognition of the issues.




Page 9                                Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this inspection was to determine whether
              explosives were being safely handled and stored at selected
              Department of Energy (Department) sites.

SCOPE         We completed the fieldwork for this performance inspection in
              April 2012, at the Idaho National Laboratory in Idaho Falls, ID;
              Savannah River Operations Office in Aiken, SC; Los Alamos
              National Laboratory in Los Alamos, NM; and, Sandia National
              Laboratories in Albuquerque, NM.

METHODOLOGY   To accomplish the inspection objective, we:

                  • Reviewed and analyzed the DOE Explosives Safety
                    Manual, site specific explosives safety manuals and plans,
                    Department contracts and directives, as well as prior
                    reports issued by the Office of Inspector General;

                  • Interviewed Department, National Nuclear Security
                    Administration and contractor officials; and,

                  • Conducted physical observations of explosives storage and
                    operating facilities at each site.

              We conducted this performance inspection in accordance with the
              Council of the Inspectors General on Integrity and Efficiency's
              Quality Standards for Inspection and Evaluation. Those standards
              require that we plan and perform the inspection to obtain
              sufficient, appropriate evidence to provide a reasonable basis for
              our conclusions and observations based on our inspection
              objective. We believe the evidence obtained provides a reasonable
              basis for our conclusions and observations based on our inspection
              objective. Accordingly, the inspection included tests of controls
              and compliance with laws and regulations to the extent necessary
              to satisfy the inspection objective. In particular, we assessed
              implementation of the Government Performance and Results Act of
              1993 and found that performance measures had, in general, been
              established relating to safety and explosives management.
              Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at
              the time of our inspection. Finally, we relied on computer-
              processed data, to some extent, to satisfy our objective related to
              explosives safety. We confirmed the validity of such data, when
              appropriate, by reviewing source documents and conducting
              physical observations.

              An exit conference was held with Department Officials on
              May 14, 2012.

Page 10                                   Objective, Scope and Methodology
Appendix 2

                                     PRIOR REPORTS

The following Department of Energy (Department) Office of Inspector General reports are
related to the handling and storage of explosives:

   •   Audit Report on Follow-up Audit of National Nuclear Security Administration's
       Nuclear Explosive Safety Study Program (OAS-L-11-04, June 2011). The objective
       of this audit was to determine whether Nuclear Explosive Safety (NES) studies and
       evaluations of nuclear explosives operations were timely and complete. The audit
       concluded that all appropriate required NES studies and operational safety reviews
       were completed and approved by the National Nuclear Security Administration.
       However, we noted that most NES studies and operational safety reviews included
       issues of concern that were designated as post-start findings that remained unresolved
       for periods ranging from 5 months to nearly 12 years. According to nuclear explosive
       safety experts, actions taken to address post-start findings serve to enhance nuclear
       explosive safety, but are not considered critical enough to suspend operations.

   •   Audit Report on The Department's Management of Non-Nuclear High Explosives
       (DOE/IG-0730, June 2006). The objective of this audit was to determine whether the
       Department was adequately managing its non-nuclear high explosive materials. The
       audit disclosed that two of three defense laboratories were not always maintaining
       control, accountability and safety over a wide variety of explosives. Specifically, we
       observed that Sandia National Laboratories (Sandia) could not properly account for at
       least 410 items, including detonators, rocket motors, shaped explosives and bulk
       explosive powders that had been consigned to off-site private sector organizations
       including laboratory subcontractors. Also, Sandia and Los Alamos National Laboratory
       (Los Alamos) accumulated large quantities of anti-personnel rockets, gun rounds and
       cartridges, and aircraft rocket motors that were not likely to be needed for current or
       future missions. Further, Sandia's explosive inventory system could not be reconciled to
       inventories maintained by certain Federal facilities at which Sandia stored explosives,
       revealing potential shortages of about 43 similar items and about 190,000 pounds of
       explosive propellant contained in 39 rocket motors owned by Sandia that were not
       recorded in its inventory system. Finally, both Sandia and Los Alamos were not
       inspecting or reviewing stability and safety characteristics of most high explosives
       materials.




Page 11                                                                          Prior Reports
Appendix 3
             MANAGEMENT COMMENTS




Page 12                            Management Comments
Appendix 3 (continued)_______________________________________




Page 13                                     Management Comments
Appendix 3 (continued)_______________________________________




Page 14                                     Management Comments
Appendix 3 (continued)_______________________________________




Page 15                                     Management Comments
                                                                    IG Report No. INS-O-12-02

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message clearer to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.



Name __________________________________ Date ________________________________

Telephone ______________________________ Organization __________________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
